Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Reimbursement of Albuterol




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-03-00-00311
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Project Leader                          Stuart Wright, Program Specialist
Tara Schmerling, Program Analyst                     Linda Moscoe, Technical Support Staff




 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                       EXECUTIVE                      SUMMARY

PURPOSE

         This report compares the amount Medicare reimburses for albuterol with (1) the amounts
         reimbursed by Medicaid and the Department of Veterans Affairs, and (2) prices available
         at pharmacies.


BACKGROUND

         Medicare does not pay for over-the-counter or most outpatient prescription drugs.
         However, Medicare Part B will cover drugs which are necessary for the effective use of
         durable medical equipment (DME). One such drug, albuterol, is commonly used with a
         nebulizer to treat patients suffering from asthma or emphysema. Medicare allowed
         approximately $246 million for albuterol in 1999.

         The Health Care Financing Administration (HCFA) contracts with four DME regional
         carriers who determine reimbursement amounts for nebulizer drugs. In general, the
         Medicare reimbursement amount for a covered drug is 95 percent of the drug’s average
         wholesale price (AWP). Of this amount, Medicare pays 80 percent while the beneficiary is
         responsible for a 20 percent copayment. Each State Medicaid agency has the authority to
         develop its own drug reimbursement methodology subject to upper limits set by HCFA.
         Additionally, Medicaid receives rebates from drug manufacturers as required by Federal
         law. Unlike Medicare and Medicaid, the Department of Veterans Affairs (VA) purchases
         drugs for its healthcare system directly from manufacturers or wholesalers. There are
         several purchase options available to the VA, including the Federal Supply Schedule,
         Blanket Purchase Agreements, and VA national contracts.

         We obtained reimbursement amounts for albuterol from Medicare, Medicaid, and the VA.
         We also determined retail prices for albuterol by contacting chain and Internet pharmacies.
         We compared Medicare’s current reimbursement amount for albuterol to amounts
         reimbursed by Medicaid and the VA, and prices available at pharmacies.


FINDINGS

Medicare and its beneficiaries would save $120 million or $209 million a year if
albuterol was reimbursed at amounts available through other Federal sources

         The Medicare reimbursement amount for albuterol is almost seven times greater than the
         VA price. The VA purchases generic albuterol through the Federal Supply Schedule for
         only $0.07 per milligram (mg), while Medicare reimburses at $0.47 per mg. We estimate

Medicare Reimbursement of Albuterol               1                                   OEI-03-00-00311
         that Medicare and its beneficiaries would save $209 million a year if reimbursement for
         albuterol was set at the amount available to the VA under the Federal Supply Schedule.
         Medicare’s reimbursement amount for albuterol is almost double Medicaid’s upper limit of
         $0.24 per mg. We estimate that Medicare and its beneficiaries would save $120 million if
         Medicare’s reimbursement amount for albuterol equaled Medicaid’s upper limit amount.

Medicare and its beneficiaries would save $47 million or $115 million a year if
Medicare reimbursed albuterol at prices available at chain and Internet
pharmacies

         Customers walking into nearly all of the chain pharmacies we contacted would pay less
         than the Medicare reimbursement amount for albuterol. Prices at these pharmacies ranged
         from a low of $0.24 cents per mg to a high of $0.48 per mg for a single box supply. If
         Medicare reimbursement was set at the pharmacies’ median price of $0.38 per mg,
         Medicare and its beneficiaries could save $47 million a year on albuterol. Some
         pharmacies offered even lower prices for larger quantity purchases. Prices for albuterol at
         the Internet pharmacies we visited ranged from $0.21 to $0.31 per mg for a single box
         supply. Medicare would save almost $115 million a year if its reimbursement amount for
         albuterol equaled the median Internet pharmacy price of $0.25 per mg. As with the chain
         pharmacies, discounts for larger quantity purchases were sometimes available.


RECOMMENDATION

         The information in this report adds to the evidence which shows that Medicare pays too
         much for albuterol. The finding that Medicare pays more than the VA for albuterol is not
         surprising since the VA acts as a purchaser of drugs while Medicare reimburses suppliers
         after-the-fact. Even allowing for this difference in payment methods, Medicare’s
         reimbursement amount for albuterol — almost seven times higher than the cost of the drug
         to the VA — seems excessive. It also seems excessive that Medicare beneficiaries pay
         more in just monthly copayments for albuterol than the VA pays for a whole month’s
         supply of the drug. Medicaid, which reimburses for drugs in a manner similar to
         Medicare, has a federally-mandated upper limit for albuterol. The upper limit amount
         established by HCFA is about half of the Medicare amount. In addition, anyone with a
         prescription can walk into a retail chain pharmacy or visit an Internet pharmacy and pay a
         price for albuterol which is usually below the Medicare reimbursement amount. These
         findings raise serious doubts about the accuracy and efficacy of Medicare’s payment
         policy.

         This report found that Medicare would save between $47 million and $209 million by
         lowering its reimbursement amount for albuterol to prices available through other sources.
         It is important to note that 20 percent of these savings would directly benefit Medicare
         beneficiaries through reduced copayments.




Medicare Reimbursement of Albuterol               2                                    OEI-03-00-00311
         We continue to support the need for lower albuterol prices for the Medicare program and
         its beneficiaries. We realize, however, that HCFA’s power to lower drug prices through
         the use of its inherent reasonableness authority was recently limited by a provision of the
         Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999. In past
         reports, we recommended a number of other options for lowering albuterol payments.
         These recommendations included (1) greater discounting of AWPs, (2) basing payments
         on supplier acquisition costs, (3) establishing manufacturers’ rebates, and (4) using
         competitive bidding. We continue to strongly believe that action needs to be taken to
         lower unreasonable drug reimbursement amounts.

Agency Comments

         The HCFA concurred with our recommendation, noting that basing reimbursement on
         acquisition cost is probably the best way to ensure that Medicare pays fair prices for
         covered drugs. Additionally, HCFA gave a detailed account of their numerous attempts
         to lower unreasonable drug reimbursement amounts in the Medicare program. Currently,
         HCFA plans to utilize a number of more accurate drug prices developed by First
         Databank, publisher of a pricing compendium used by the pharmaceutical industry. HCFA
         requested that Medicare contractors use these prices when calculating their drug
         reimbursement amounts. The HCFA also commented that they are working to develop a
         comprehensive electronic file on the pricing of Medicare covered drugs, and are
         continuing a competitive bidding demonstration project for albuterol in Texas. In
         addition, HCFA is consulting with the Department of Justice and the Office of Inspector
         General on the feasibility of developing additional means to ensure that accurate drug
         pricing data is used in setting Medicare reimbursement rates. The full text of HCFA’s
         comments is presented in Appendix E.

         We commend HCFA’s efforts to lower Medicare drug reimbursement rates. We fully
         support attempts to obtain more accurate prices for the Medicare program. We believe
         that HCFA’s request that Medicare contractors use the more accurate prices supplied by
         First Databank is a significant first step towards reimbursing drugs in a more appropriate
         manner.




Medicare Reimbursement of Albuterol               3                                    OEI-03-00-00311
                        TABLE                       OF              CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Medicare Reimbursement Compared to VA and Medicaid . . . . . . . . . . . . . . . . . . . . . . 10


          Medicare Reimbursement Compared to Chain and Internet Pharmacies . . . . . . . . . . . . 11


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


          A. Previous OIG Reports on Albuterol Reimbursement . . . . . . . . . . . . . . . . . . . . . . . . 14


          B. Calculation of Potential Savings for Albuterol . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          C. Albuterol Prices Available at Chain Pharmacies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          D. Albuterol Prices Available at Internet Pharmacies . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          E. Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 18





Medicare Reimbursement of Albuterol                             4                                               OEI-03-00-00311
                                      INTRODUCTION

PURPOSE

         This report compares the amount Medicare reimburses for albuterol with (1) the amounts
         reimbursed by Medicaid and the Department of Veterans Affairs, and (2) prices available
         at pharmacies.


BACKGROUND

Medicare Coverage of Albuterol

         Medicare does not pay for over-the-counter or most outpatient prescription drugs.
         However, Medicare Part B will cover drugs which are necessary for the effective use of
         durable medical equipment (DME). One such drug, albuterol, is commonly used with a
         nebulizer to treat patients suffering from asthma or emphysema. Medicare allowed
         approximately $246 million for albuterol in 1999, which represents nearly half of the $545
         million allowed for all nebulizer drugs that year.

Medicare Drug Reimbursement

         The Health Care Financing Administration (HCFA), which administers the Medicare
         program, contracts with four DME regional carriers (DMERCs) to process all claims for
         durable medical equipment and associated supplies, including nebulizer drugs. Each
         DMERC is responsible for determining the reimbursement amount for equipment and
         supplies in their respective region based on Medicare’s reimbursement methodology.

         Medicare’s current reimbursement methodology for prescription drugs is defined by
         Section 4556 of the Balanced Budget Act of 1997. The DMERCs base their
         reimbursement amount for a covered drug on its average wholesale price (AWP) as
         published in Drug Topics Red Book or similar pricing publications used by the
         pharmaceutical industry. If a drug is available only in brand form, reimbursement is
         calculated by taking 95 percent of the drug’s AWP. For drugs like albuterol that have
         both brand and generic sources available, reimbursement is based on 95 percent of the
         median AWP for generic sources. However, if a brand name product’s AWP is lower
         than the median generic price, Medicare reimburses 95 percent of the lowest brand price.

         Section 4316 of the Balanced Budget Act of 1997 allows HCFA to diverge from the
         statutorily-defined payment method if the method results in payment amounts which are
         not inherently reasonable. However, HCFA’s ability to use its inherent reasonableness
         authority was recently limited by a provision of the Medicare, Medicaid, and SCHIP
         Balanced Budget Refinement Act of 1999. This provision requires the General

Medicare Reimbursement of Albuterol               5                                   OEI-03-00-00311
         Accounting Office (GAO) to complete a study on the potential effects of using inherent
         reasonableness measures before HCFA can invoke the authority. The Department of
         Health and Human Services must then publish a notice of final rule-making concerning
         inherent reasonableness in the Federal Register. This notice must respond to both the
         GAO study and any comments received on the interim inherent reasonableness regulation.
         The Act also requires that the Department reevaluate the appropriateness of the criteria
         used to identify unreasonable payments, and take steps to ensure the use of valid and
         reliable data when exercising the inherent reasonableness authority.

Medicaid Drug Reimbursement

         Each State Medicaid agency has the authority to develop its own drug reimbursement
         methodology subject to upper limits set by HCFA. Like Medicare, most Medicaid
         agencies use a discounted AWP as the basis for calculating drug reimbursement amounts.
         Medicaid agencies generally use a more deeply-discounted AWP than does Medicare.
         However, HCFA has established a Medicaid upper limit for albuterol. The payments for
         albuterol and other drugs with Federal upper limits must not exceed, in the aggregate, the
         established upper limit amounts. The HCFA sets the upper limit for a drug at 150 percent
         of the lowest price listed in any of the drug pricing compendia.

         Additionally, Medicaid receives rebates from drug manufacturers as required by Federal
         law. In 1999, the quarterly rebate for brand-name drugs was based on either 15.1 percent
         of the average manufacturer price (AMP) or the difference between the AMP and the best
         price, whichever was greater. The AMP is the average price paid by wholesalers for
         products distributed for retail trade. The best price is the lowest price paid by any
         purchaser with the exception of Federal agencies and State pharmaceutical assistance
         programs. The rebate amount for generic drugs was 11 percent of AMP.

Department of Veterans Affairs Drug Reimbursement

         Unlike Medicare and Medicaid, the Department of Veterans Affairs (VA) purchases drugs
         for its healthcare system directly from manufacturers or wholesalers. There are several
         purchase options available to the VA, including the Federal Supply Schedule, Blanket
         Purchase Agreements, and VA national contracts.

         The Federal Supply Schedule provides agencies like the VA with a simple process for
         purchasing commonly-used products in various quantities while still obtaining the
         discounts associated with volume buying. Using competitive procedures, contracts are
         awarded to companies to provide services and supplies at the Federal Supply Schedule
         price over a given period of time. Agencies are not required to use the Federal Supply
         Schedule, however, and are sometimes able to negotiate prices lower than the Federal
         Supply Schedule price.




Medicare Reimbursement of Albuterol               6                                   OEI-03-00-00311
Related Work by the Office of Inspector General

         The Office of Inspector General (OIG) has studied a number of issues relating to Medicare
         reimbursement of albuterol. Brief summaries of selected studies are presented in
         Appendix A.


METHODOLOGY

Medicare Reimbursement Amounts

         Medicare identifies covered drugs using codes in HCFA’s Common Procedure Coding
         System (HCPCS). The HCPCS codes define the type of drug and, in most cases, a dosage
         amount. There are currently two HCPCS codes for albuterol, one for a unit dose solution
         and another for a concentrated solution. Because nearly all of the billing for albuterol is
         for the unit dose form of the drug, we only reviewed the reimbursement amounts for the
         unit dose code. The term “unit dose” refers to a solution of 0.083 percent albuterol.

         As of January 2000, the HCPCS code for the unit dose form of albuterol is J7619. This
         code is defined as, “albuterol, inhalation solution administered through DME, unit dose
         form, per milligram.” In 1999, HCPCS code K0505 was used to bill for the unit dose
         form of albuterol. The HCPCS code definition of K0505 is identical to J7619.

         We obtained current fee schedule reimbursement amounts for HCPCS code J7619 from
         the four DMERCs. The reimbursement amount for albuterol was the same for each of the
         four DMERCs. For the purpose of this report, Medicare’s reimbursement amount
         includes both the 80 percent Medicare payment and the 20 percent beneficiary copayment.

Matching HCPCS Codes to National Drug Codes

         Unlike Medicare, Medicaid and the VA use national drug codes (NDCs) rather than
         HCPCS codes to identify drugs products. Because of these coding differences, we used
         the January 2000 CD-ROM edition of Drug Topics Red Book to identify the specific
         NDCs that would match the HCPCS code definition for albuterol. Each drug
         manufactured or distributed in the United States has a unique NDC. The NDCs identify
         the manufacturer of the drug, the product dosage form, and the package size. From the
         NDCs, the drugs can be identified as either brand or generic. Because Medicare uses
         generic products to determine its reimbursement amount for albuterol, we only selected
         generic albuterol NDCs. We found 17 NDCs for generic albuterol which matched the
         HCPCS definition of J7619.




Medicare Reimbursement of Albuterol               7                                   OEI-03-00-00311
Medicaid Reimbursement Amounts

         We obtained from HCFA the Medicaid upper limit amount for albuterol as of April 1,
         2000. We also accessed the Medicaid Drug Rebate Initiative system to determine the
         Medicaid rebate amounts for albuterol. We used the most recent rebate amounts available
         for each NDC code, which in most cases was the fourth quarter of 1999. Four of the 17
         NDCs reviewed did not have any rebate information available. We calculated the median
         milliliter (ml) rebate amount for the remaining 13 NDCs in order to determine a single
         Medicaid rebate amount.

VA Pricing

         To determine the VA’s fourth quarter 1999 costs for albuterol, we obtained a file from the
         VA containing their contracted prices. The VA pricing file contained Federal Supply
         Schedule prices for 7 of the 17 matching albuterol NDCs. To determine a single VA
         price, we calculated the median price per ml for these seven NDCs.

Pharmacy Pricing

         We contacted three chain pharmacies in each of eight cities (Atlanta, Boston, Chicago,
         Dallas, Kansas City, New York, Philadelphia, and San Francisco). We also visited the
         websites of three Internet pharmacies. Our review of the applicable NDCs indicates that
         the smallest amount of unit dose albuterol available for purchase is 75 ml, which is usually
         supplied in one box of twenty-five 3 ml vials. Therefore, we requested that the
         pharmacies provide their price for this amount of the drug. To determine if there were
         volume discounts available, we asked for the price of four boxes of albuterol (300 ml),
         which is a typical monthly usage amount for the drug. We then calculated the median
         price per ml of a single box supply for both chain and Internet pharmacies.

Conversion of Prices

         The HCPCS code for the unit dose form of albuterol, J7619, is reimbursed per milligram
         (mg). Medicaid’s upper limit is based on 1 ml of 0.083 percent albuterol solution. The
         NDCs used to determine the Medicaid rebates, VA prices, and pharmacy prices were all
         based on 3 ml vials of 0.083 percent albuterol solution. Consequently, we needed to
         convert milliliter prices of albuterol into milligram prices.

         A 3 ml vial of 0.083 percent albuterol solution contains 2.5 mg of albuterol. Therefore, 1
         ml of solution contains 0.833 mg of albuterol (2.5 divided by 3). After determining a per
         ml price for albuterol from each of the sources, we converted this to a per mg price simply
         by dividing the per ml price by 0.833. For example, by dividing the Medicaid upper limit
         price of $0.20 per ml by 0.833, we calculated that the Medicaid upper limit price equals
         $0.24 per milligram.




Medicare Reimbursement of Albuterol               8                                     OEI-03-00-00311
Calculating Potential Medicare Savings

         To calculate potential Medicare savings, we compared Medicare’s reimbursement amount
         for albuterol to amounts available at the VA, Medicaid, chain pharmacies, and Internet
         pharmacies. We determined the percentage difference in prices by subtracting the source
         price from the Medicare price, and then dividing this number by the Medicare price.
         These percentages indicate how much Medicare would save if reimbursement for albuterol
         was based on prices provided by other sources. We then multiplied these percentages by
         Medicare’s 1999 allowed charges for albuterol in order to calculate dollar savings. A
         table showing the data used to calculate potential savings is presented in Appendix B.




Medicare Reimbursement of Albuterol             9                                  OEI-03-00-00311
                                          FINDINGS

Medicare and its beneficiaries would save $120 million or
$209 million a year if albuterol was reimbursed at amounts
available through other Federal sources
The Medicare reimbursement amount for albuterol is almost seven times greater
than the VA price

         The median Federal Supply Schedule price available to the VA for generic albuterol is
         only $0.07 per mg, compared to $0.47 per mg for Medicare. We estimate that Medicare
         and its beneficiaries would save $209 million a year if reimbursement for albuterol was set
         at the amount available to the VA under the Federal Supply Schedule. This savings
         represents 85 percent of the $246 million in Medicare allowed charges for albuterol in
         1999. A Medicare beneficiary using 250 mg of albuterol per month would pay more in
         just the Medicare copayment ($23.50) than the VA would pay ($17.50) to purchase the
         drug outright. Table 1 below compares the Medicare reimbursement amount to prices
         available through other sources. It also provides potential Medicare savings and
         beneficiary copayments based on various reimbursement levels.

                        TABLE 1: COMPARISON OF ALBUTEROL PRICES
                                            Cost of Typical    Monthly Beneficiary    Potential Annual
                                 Price
 Pricing Source                           Individual Monthly   Copayment Based on      Medicare and
                                 per mg
                                            Usage (250 mg)        Source Price       Beneficiary Savings

 Medicare Reimbursement
                                  $0.47        $117.50               $23.50                 N/A
 Amount

 Department of Veterans
                                  $0.07        $17.50                 $3.50             $209,478,193
 Affairs Median Cost

 Medicaid Upper Limit
                                  $0.24        $60.00                $12.00             $120,449,961
 Amount

 Chain Pharmacy Median
                                  $0.38        $95.00                $19.00              $47,132,593
 Price

 Internet Pharmacy
                                  $0.25        $62.50                $12.50             $115,213,006
 Median Price


The Medicare reimbursement amount for albuterol is nearly twice the Medicaid
reimbursement amount

         The HCFA has set Medicaid’s upper limit for albuterol at $0.24 per mg, yet Medicare
         DMERCs reimburse albuterol at $0.47 per mg. We estimate that Medicare and its
Medicare Reimbursement of Albuterol                  10                                    OEI-03-00-00311
         beneficiaries would save $120 million a year if Medicare’s reimbursement amount for
         albuterol equaled Medicaid’s upper limit amount. These potential savings represent
         almost one-half of Medicare allowed charges for albuterol in 1999.

         In addition to the lower reimbursement amount, Medicaid also receives a rebate for
         generic albuterol of approximately $0.01 per mg. This would create an additional $5.2
         million in savings a year for Medicare.


Medicare and its beneficiaries would save $47 million or
$115 million a year if Medicare reimbursed albuterol at prices
available at chain and Internet pharmacies
Customers walking into nearly all of the chain pharmacies we contacted would
pay less than the Medicare reimbursement amount for albuterol

         Twenty-two of the 24 pharmacies we contacted charge customers less than the Medicare
         reimbursement amount for albuterol. Prices at the 24 chain pharmacies ranged from a low
         of $0.25 cents per mg to a high of $0.48 per mg for a single box supply. Based on the 24
         pharmacies’ median price of $0.38 per mg, Medicare and its beneficiaries would save $47
         million a year on albuterol.

         Some pharmacies offered even lower prices for larger quantities of the drug. For example,
         one chain pharmacy offered four boxes of albuterol (a typical monthly supply) for $35.94,
         a cost of only $0.14 per mg. Medicare would have reimbursed $117.50 for the same
         amount. If Medicare reimbursed albuterol at $0.14 per mg, it would save 70 percent of
         current albuterol payments. The prices for albuterol available at the chain pharmacies we
         contacted are presented in Appendix C.

Customers purchasing albuterol at Internet pharmacies would pay lower prices
than Medicare

         Prices for albuterol at the Internet pharmacies we visited ranged from $0.21 to $0.31 per
         mg for a single box supply. Medicare would save almost $115 million a year if its
         reimbursement amount for albuterol equaled the median Internet pharmacy price of $0.25
         per mg. As with the chain pharmacies, discounts for larger quantity purchases were
         sometimes available. The lowest price found for a four-box supply of albuterol was
         $41.94, a cost of $0.17 per mg. If Medicare reimbursed albuterol at $0.17 per mg, it
         would save 64 percent of current albuterol payments. The prices for albuterol at each of
         the Internet pharmacies we contacted are presented in Appendix D.




Medicare Reimbursement of Albuterol              11                                   OEI-03-00-00311
                              RECOMMENDATION


         The information in this report adds to the evidence which shows that Medicare pays too
         much for albuterol. The finding that Medicare pays more than the VA for albuterol is not
         surprising since the VA acts as a purchaser of drugs while Medicare reimburses suppliers
         after-the-fact. Even allowing for this difference in payment methods, Medicare’s
         reimbursement amount for albuterol — almost seven times higher than the cost of the drug
         to the VA — seems excessive. It also seems excessive that Medicare beneficiaries pay
         more in just monthly copayments for albuterol than the VA pays for a whole month’s
         supply of the drug. Medicaid, which reimburses for drugs in a manner similar to
         Medicare, has a federally-mandated upper limit for albuterol. The upper limit amount
         established by HCFA is about half of the Medicare amount. In addition, anyone with a
         prescription can walk into a retail chain pharmacy or visit an Internet pharmacy and pay a
         price for albuterol which is usually below the Medicare reimbursement amount. These
         findings raise serious doubts about the accuracy and efficacy of Medicare’s payment
         policy.

         This report found that Medicare would save between $47 million and $209 million by
         lowering its reimbursement amount for albuterol to prices available through other sources.
         It is important to note that 20 percent of these savings would directly benefit Medicare
         beneficiaries through reduced copayments.

         We continue to support the need for lower albuterol prices for the Medicare program and
         its beneficiaries. We realize, however, that HCFA’s power to lower drug prices through
         the use of its inherent reasonableness authority was recently limited by a provision of the
         Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999. In past
         reports, we recommended a number of other options for lowering albuterol payments.
         These recommendations included (1) greater discounting of AWPs, (2) basing payments
         on supplier acquisition costs, (3) establishing manufacturers’ rebates, and (4) using
         competitive bidding. We continue to strongly believe that action needs to be taken to
         lower unreasonable drug reimbursement amounts.

Agency Comments

         The HCFA concurred with our recommendation, noting that basing reimbursement on
         acquisition cost is probably the best way to ensure that Medicare pays fair prices for
         covered drugs. Additionally, HCFA gave a detailed account of their numerous attempts
         to lower unreasonable drug reimbursement amounts in the Medicare program. Currently,
         HCFA plans to utilize a number of more accurate drug prices developed by First
         Databank, publisher of a pricing compendium used by the pharmaceutical industry. HCFA
         requested that Medicare contractors use these prices when calculating their drug
         reimbursement amounts. The HCFA also commented that they are working to develop a

Medicare Reimbursement of Albuterol               12                                   OEI-03-00-00311
         comprehensive electronic file on the pricing of Medicare covered drugs, and are
         continuing a competitive bidding demonstration project for albuterol in Texas. In
         addition, HCFA is consulting with the Department of Justice and the Office of Inspector
         General on the feasibility of developing additional means to ensure that accurate drug
         pricing data is used in setting Medicare reimbursement rates. The full text of HCFA’s
         comments is presented in Appendix E.

OIG Response

         We commend HCFA’s efforts to lower Medicare drug reimbursement rates. We fully
         support attempts to obtain more accurate prices for the Medicare program. We believe
         that HCFA’s request that Medicare contractors use the more accurate prices supplied by
         First Databank is a significant first step towards reimbursing drugs in a more appropriate
         manner.




Medicare Reimbursement of Albuterol              13                                    OEI-03-00-00311
                                                                       APPENDIX                  A


          Previous OIG Reports on Albuterol Reimbursement


Are Medicare Allowances for Albuterol Sulfate Reasonable? (OEI-03-97-00292), 

August 1998. We found that Medicare would allow between 56 to 550 percent more than the

VA would pay for generic versions of albuterol sulfate in 1998, and 20 percent more than the

average Medicaid payment for albuterol sulfate in 1997. We also found that Medicare allowed

333 percent more than available acquisition costs for the drug in 1998. Customers of mail-order

pharmacies would pay up to 30 percent less than Medicare for albuterol sulfate in 1998. 



A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), June 1996. We found that

many of the pharmacies surveyed charged customers less than the Medicare allowed amount for

generic albuterol sulfate. The five buying groups surveyed had negotiated prices between 56 and

70 percent lower than Medicare’s reimbursement amount for the drug.



Suppliers’ Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393), June 1996. We found

that Medicare’s allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs

for the drug. The Medicare program could have saved $94 million of the $182 million allowed for

albuterol during the 14-month review period if Medicare reimbursement amounts had been based

on average supplier invoice costs. 



Medicare Payments for Nebulizer Drugs (OEI-03-94-00390), February 1996. We found that

Medicare and its beneficiaries paid about $37 million more for three nebulizer drugs in 17 States

than Medicaid would have paid for equivalent drugs. In addition, we found that the potential

savings were not limited to the three nebulizer drugs and 17 states which were reviewed.





Medicare Reimbursement of Albuterol              14                                    OEI-03-00-00311
                                                                         APPENDIX                 B


                Calculation of Potential Savings for Albuterol

(1)	     To determine percentage differences in albuterol prices, we subtracted the source price
         from the Medicare price. We then divided this number by the Medicare price.

(2)	     To calculate potential savings, we multiplied Medicare’s 1999 allowed charges for
         albuterol by the percentage difference in price.


                                                                           1999           Potential
                                                 Medicare   Percentage
                                         Price                            Medicare      Medicare and
 Price Source                                     Price     Difference
                                        per mg                            Allowed        Beneficiary
                                                  per mg     in Price*
                                                                          Charges         Savings

 VA Median Cost                         $0.07     $0.47       85.1%      $246,136,877    $209,478,193

 Medicaid Upper Limit Amount            $0.24     $0.47       48.9%      $246,136,877    $120,449,961

 Chain Pharmacy Median Price            $0.38     $0.47       19.1%      $246,136,877    $47,132,593

 Internet Pharmacy Median Price         $0.25     $0.47       46.8%      $246,136,877    $115,213,006

* Percentage rounded to nearest tenth




Medicare Reimbursement of Albuterol                15                                   OEI-03-00-00311
                                                                                  APPENDIX                    C


               Albuterol Prices Available at Chain Pharmacies


                                       Price of 1 Box               1 Box       Price of 4 Boxes      4 Box
City               Pharmacy                (75ml)                per mg Price       (300 ml)       per mg Price

Atlanta            CVS                      $22.99                  $0.37           $91.99            $0.37

Atlanta            Drug Emporium            $28.95                  $0.46           $102.95           $0.41

Atlanta            Walmart                  $20.54                  $0.33           $52.68            $0.21

Boston             CVS                      $29.29                  $0.47           $117.99           $0.47

Boston             K Mart                   $27.99                  $0.45           $86.59            $0.35

Boston             Walgreens                $26.99                  $0.43           $106.89           $0.43

Chicago            K Mart                   $21.99                  $0.35           $80.59            $0.32

Chicago            Osco                     $27.69                  $0.44           $110.76           $0.44

Chicago            Walgreens                $28.19                  $0.45           $112.76           $0.45

Dallas             Drug Emporium            $15.44                  $0.25           $35.94            $0.14

Dallas             Walgreens                $23.89                  $0.38           $94.99            $0.38

Dallas             Walmart                  $21.54                  $0.34           $52.68            $0.21

Kansas City        K Mart                  $27.99*                  $0.37           $99.19*           $0.33

Kansas City        Walgreens                $23.99                  $0.38           $95.79            $0.38

Kansas City        Walmart                  $21.54                  $0.34           $52.98            $0.21

New York           CVS                      $22.99                  $0.37           $91.99            $0.37

New York           K Mart                  $26.89*                  $0.36           $98.00*           $0.33

New York           Walgreens                $27.39                  $0.44           $108.69           $0.43

Philadelphia       Drug Emporium            $28.95                  $0.46           $102.95           $0.41

Philadelphia       Walgreens                $26.99                  $0.43           $107.96           $0.43

Philadelphia       Walmart                  $20.54                  $0.33           $52.68            $0.21

San Francisco      Rite Aid                 $21.98                  $0.35           $57.69            $0.23

San Francisco      Safeway                  $26.99                  $0.43           $81.49            $0.33

San Francisco Walgreens                     $29.89                  $0.48           $117.49           $0.47
* Price of product is for box of 90 ml rather than 75 ml.

Medicare Reimbursement of Albuterol                         16                                     OEI-03-00-00311
                                                                     APPENDIX              D


            Albuterol Prices Available at Internet Pharmacies



                             Price of 1 Box      1 Box       Price of 4 Boxes      4 Box
 Pharmacy                        (75 ml)      per mg Price       (300 ml)       per mg Price

 Drugstore.com                   $15.78          $0.25            $62.50           $0.25

 Pharmor.com                     $19.29          $0.31            $76.89           $0.31

 Planetrx.com                    $13.23          $0.21            $41.94           $0.17




Medicare Reimbursement of Albuterol               17                              OEI-03-00-00311
                                                                     APPENDIX                 E



            Health Care Financing Administration Comments


         In this appendix, we present, in full, comments from the Health Care Financing
         Administration.




Medicare Reimbursement of Albuterol             18                                   OEI-03-00-00311
                                           APPENDIX       E




Medicare Reimbursement of Albuterol   19         OEI-03-00-00311
                                           APPENDIX       E




Medicare Reimbursement of Albuterol   20         OEI-03-00-00311
                                           APPENDIX       E




Medicare Reimbursement of Albuterol   21         OEI-03-00-00311
                                           APPENDIX       E




Medicare Reimbursement of Albuterol   22         OEI-03-00-00311
Medicare Reimbursement of Albuterol   23   OEI-03-00-00311
